Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 POWER WHEELCHAIRS IN THE
    MEDICARE PROGRAM:
 SUPPLIER ACQUISITION COSTS
        AND SERVICES




                    Daniel R. Levinson
                     Inspector General

                      August 2009
                     OEI-04-07-00400
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                 S U M M A R Y




                      OBJECTIVES
                      (1) To compare Medicare payments for power wheelchairs with
                          suppliers’ acquisition costs.

                      (2) To determine the number and types of services that suppliers
                          performed in conjunction with providing power wheelchairs to
                          Medicare beneficiaries.


                      BACKGROUND
                      Medicare beneficiaries are eligible to receive power wheelchairs under
                      Medicare Part B coverage of durable medical equipment. Qualified
                      Medicare beneficiaries receive power wheelchairs from suppliers that
                      bill the Medicare program for reimbursement. In 2007, approximately
                      173,300 Medicare beneficiaries received power wheelchairs, at a total
                      cost of $686 million.

                      Medicare’s fee schedule amounts are based on manufacturer-suggested
                      retail prices. They include reimbursement for the power wheelchair
                      acquisition cost and services performed in conjunction with providing
                      the wheelchair, such as assembling and delivering it and educating the
                      beneficiary about its use. Prior Office of Inspector General (OIG)
                      reviews have found that consumers can buy power wheelchairs for lower
                      prices than Medicare and its beneficiaries. In May 2006, the Centers for
                      Medicare & Medicaid Services (CMS) proposed a revised methodology
                      for setting new fee schedule amounts that would not rely upon
                      manufacturer-suggested retail prices and is responsive to the market.
                      As of May 2009, CMS had not finalized this proposal.

                      CMS planned to use supplier-submitted competitive bids to establish
                      reimbursement amounts for power wheelchairs and other durable
                      medical equipment (DME), beginning in July 2008. Medicare and
                      beneficiary payments under the Competitive Bidding Acquisition
                      Program would have decreased by an average of 26 percent across all
                      included categories of DME, saving up to an estimated $1 billion
                      annually. However, Congress delayed the program and exempted
                      complex rehabilitation power wheelchairs from future competitive
                      bidding. To offset the cost savings lost by this delay, fee schedule
                      amounts were reduced in January 2009 by 9.5 percent.

                      We requested documentation of the amounts that suppliers paid to
                      purchase a nationally representative sample of 375 standard and


    OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   i
E X E C U T I V E          S U    M M A R Y



                        complex rehabilitation power wheelchairs supplied to Medicare
                        beneficiaries in the first half of 2007. We also requested documentation
                        of the services that suppliers performed in conjunction with providing
                        the power wheelchairs. We did not determine the cost of performing
                        these services or other general supplier business expenses, such as
                        billing, accreditation, staff salaries, or facility maintenance.


                        FINDINGS
                        Medicare allowed an average of $4,018 for standard power
                        wheelchairs that cost suppliers an average of $1,048 in the first half
                        of 2007. Medicare and its beneficiaries paid almost four times the
                        average amount paid by suppliers to acquire standard power
                        wheelchairs during the first half of 2007. The beneficiary’s copayment
                        ($804) covered 77 percent of suppliers’ average acquisition cost.
                        Medicare’s average payment under the Competitive Bidding Acquisition
                        Program ($3,073) would have been almost three times the average
                        acquisition cost. Although Medicare’s fee schedule amount was reduced
                        from $4,024 to $3,641 to offset the Competitive Bidding Acquisition
                        Program’s delay, the 2009 fee schedule amount exceeds the average
                        competitively bid price by $568.
                        Medicare allowed an average of $11,507 for complex rehabilitation
                        power wheelchair packages that cost suppliers an average of
                        $5,880 in the first half of 2007. Medicare and its beneficiaries paid
                        almost two times the average amount paid by suppliers to acquire complex
                        rehabilitation power wheelchair packages during the first half of 2007. We
                        define a complex rehabilitation power wheelchair package as the power
                        wheelchair plus its power options and accessories. Medicare allowed an
                        average of $5,354 for complex rehabilitation power wheelchairs that cost
                        suppliers an average of $2,565. Medicare allowed an average of $6,153 for
                        the power options and accessories supplied with complex rehabilitation
                        power wheelchairs that cost suppliers an average of $3,316.
                        Suppliers of standard power wheelchairs reported performing an
                        average of five services per chair, while suppliers of complex
                        rehabilitation power wheelchair packages reported performing an
                        average of seven services. Suppliers of standard power wheelchairs
                        and complex rehabilitation power wheelchair packages reported
                        performing respective averages of five and seven services prior to, during,
                        and over an average of 9 months after delivering the chairs. Suppliers
                        reported performing most services prior to and during the wheelchairs’


      OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   ii
E X E C U T I V E          S U    M M A R Y




                        delivery. However, suppliers of complex rehabilitation power wheelchairs
                        reported performing twice as many services as suppliers of standard
                        chairs at times other than the day of delivery. Suppliers reported
                        performing required services most of the time and additional services as
                        needed.


                        RECOMMENDATION
                        Prior OIG evaluations found that consumers can purchase power
                        wheelchairs at lower prices than Medicare and its beneficiaries. The
                        findings of this evaluation suggest that CMS’s current methodology for
                        developing power wheelchair fee schedule amounts does not reflect
                        actual acquisition costs.

                        Based on manufacturer invoices and other documentation that we
                        collected from suppliers, we found that Medicare and its beneficiaries
                        paid almost four times the average amount paid by suppliers to acquire
                        standard power wheelchairs during the first half of 2007. Medicare and
                        its beneficiaries paid suppliers an average of $2,970 beyond the
                        supplier’s acquisition cost to perform an average of five services and
                        cover general business costs.

                        Medicare’s average allowed amount in the first half of 2007 ($4,018) was
                        383 percent of suppliers’ average acquisition cost for standard power
                        wheelchairs. In comparison, the Competitive Bidding Acquisition
                        Program, which would have reduced the average Medicare payment for
                        standard power wheelchairs to $3,073, would have been 293 percent of
                        suppliers’ average acquisition cost. Although Medicare’s fee schedule
                        amount was reduced to $3,641 to offset the Competitive Bidding
                        Acquisition Program’s delay, the 2009 fee schedule amount exceeds the
                        average competitively bid price by $568.

                        Medicare and its beneficiaries paid almost two times the average
                        amount paid by suppliers to acquire complex rehabilitation power
                        wheelchair packages during the first half of 2007. Medicare and its
                        beneficiaries paid suppliers an average of $5,627 beyond the supplier’s
                        acquisition cost to perform an average of seven services and cover
                        general business costs.




      OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   iii
EXECUTIVE                    SUMMARY




                       Based on these findings, we recommend that CMS:
                       Determine whether Medicare's fee schedule amounts for standard
                       and complex rehabilitation power wheelchairs should be adjusted.

                       CMS should consider the following methods for reviewing fee schedule
                       amounts:
                       •   Use information from the Competitive Bidding Acquisition
                           Program to adjust fee schedule amounts.
                       •   Seek legislation to ensure that fee schedule amounts are
                           reasonable and responsive to market changes.
                       •   Use the results ofthis evaluation to determine whether an
                           inherent reasonableness review is appropriate.
                       When setting fee schedule amounts, CMS should consider that supplier
                       acquisition costs and services differ by power wheelchair type.


                       AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                       RESPONSE
                       CMS concurred with our recommendation and noted that the report
                       provides valuable insight on suppliers' average acquisition costs for
                       standard and complex rehabilitation power wheelchairs. It also noted
                       that it has worked on a number of important regulatory and
                       administrative initiatives related to the coding, payment, and coverage
                       of power wheelchairs in response to the significant growth in
                       expenditures for these items under the Medicare program.
                       CMS also provided comments about each suggested method for
                       determining whether Medicare's fee schedule amounts for standard and
                       complex rehabilitation power wheelchairs should be adjusted. CMS
                       concurred that it has the authority to use the payment amounts
                       determined under the Competitive Bidding Acquisition Program to
                       adjust the existing Medicare fee schedule amounts for DME items in
                       areas not included in a competitive bidding program. CMS will conduct
                       rulemaking to implement a detailed methodology and process for
                       applying this authority. CMS also stated that it will carefully consider
                       seeking legislation to ensure that fee schedule amounts are reasonable
                       and responsive to market changes. It noted that, although it is
                       considering taking steps to revise the administrative process for gap'
                       filling fee schedule amounts for new DME items, new legislation may
                       not be required to make these revisions. Further, CMS did not concur

  oEI· 04· 07 ·00400   POWER WHEELCHAIRS IN THE MEDICARE PROGRAM:   SUPPLIER ACQUISITION COSTS AND SERVICES   iv
EXECUTIVE                   S LJ    M MAR Y



                   with using the results of this evaluation to determine whether an
                   inherent reasonableness review is appropriate. CMS noted that it is not
                   likely to consider undertaking a review of the standard and complex
                   rehabilitation power wheelchair fee schedule amounts until the results
                   of the supplier bids under the Competitive Bidding Acquisition Program'
                   have been assessed. Lastly, CMS stated that it will consider that
                   supplier purchase prices and services differ by power wheelchair type
                   when setting fee schedule amounts.
                   We support CMS's efforts to address these issues and encourage it to
                   continue to make progress in these areas.




 OEI·04·07·00400   POWER WHEELCHAIRS IN THE MEDICARE PROGRAM:   SUPPLIER ACQUISITION COSTS ANO SERVICES   v
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i


         INTRODUCTION ........................................... 1


         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                    Medicare allowed an average of $4,018 for standard power
                    wheelchairs that cost suppliers an average of $1,048 in
                    the first half of 2007 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

                    Medicare allowed an average of $11,507 for complex
                    rehabilitation power wheelchair packages that cost
                    suppliers an average of $5,880 in the fist half
                    of 2007 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                    Suppliers of standard power wheelchairs reported
                    performing an average of five services per chair, while
                    suppliers of complex rehabilitation power wheelchair
                    packages reported performing an average of seven
                    services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
                    Agency Comments and Office of Inspector General Response . . . 25


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
                    A: Population and Sample Sizes, by Category . . . . . . . . . . . . . . . 27

                    B: Complex Rehabilitation Power Options and
                       Accessories, From Sample . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

                    C: Estimates and Confidence Intervals. . . . . . . . . . . . . . . . . . . . . 29

                    D: Supplier Service Categories and Descriptions . . . . . . . . . . . . . 35

                    E: Median Supplier Acquisition Costs and
                       Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

                    F: Average Numbers and Frequencies of Supplier Services. . . . . 37

                    G: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
Δ   I N T R O D U C T I O N


                  OBJECTIVES
                  (1) To compare Medicare payments for power wheelchairs with
                      suppliers’ acquisition costs.

                  (2) To determine the number and types of services that suppliers
                      performed in conjunction with providing power wheelchairs to
                      Medicare beneficiaries.


                  BACKGROUND
                  Between 1999 and 2003, Medicare payments for power wheelchairs
                  increased approximately 350 percent, from $259 million to $1.2 billion,
                  while overall Medicare program expenditures rose 28 percent. 1 During
                  2005 and 2006, the Centers for Medicare & Medicaid Services (CMS)
                  revised Medicare’s policies for power wheelchair coverage, coding, and
                  pricing to better support accurate payment and coverage decisions. 2 3
                  In 2007, approximately 173,300 Medicare beneficiaries received power
                  wheelchairs, at a total cost of $686 million. 4
                  Medicare Coverage Criteria for Power Wheelchairs
                  Medicare beneficiaries are eligible to receive power wheelchairs under
                  Medicare Part B coverage of durable medical equipment (DME). Items
                  provided under Medicare Part B, including power wheelchairs, must be
                  “reasonable and necessary for the diagnosis or treatment of illness or
                  injury or to improve the functioning of a malformed body member.” 5
                  Most beneficiaries who require power wheelchairs are unable to walk
                  and have severe upper body weakness. 6 Power wheelchairs are
                  medically necessary for beneficiaries who cannot effectively perform
                  mobility-related activities of daily living using other mobility-assistive




                    1   71 Fed. Reg. 17021, 17022 (Apr. 5, 2006).
                    2CMS, Pub. No. 11272P, “2006 Fee Schedule Amounts for Power Mobility Devices Have
                  Been Refined,” November 2006.
                    3In November 2006, Medicare revised its power wheelchair fee schedule, increasing the
                  number of procedure codes from 4 to 42.
                    4   Office of Inspector General (OIG) analysis of CMS’s claims data, July 2008.
                    5   Social Security Act, § 1862(a)(1)(A).
                    6CMS’s Medicare Learning Network, “Medicare Coverage of Power Mobility Devices:
                  Power Wheelchairs and Power Operated Vehicles,” April 2006.



OEI-04-07-00400   POWER WHEELCHAIRS     IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   1
I N T R O D      U C T    I O N



                         equipment, such as a cane, manual wheelchair, or power-operated
                         scooter. 7 8
                         Medicare beneficiaries receive power wheelchairs from suppliers that
                         bill the Medicare program for reimbursement. 9 The prescribing
                         physician provides the supplier with documentation from the
                         beneficiary’s medical record to support the medical necessity of the
                         power wheelchair, along with the power wheelchair prescription. 10
                         Based on the physician’s prescription, the supplier recommends a
                         specific power wheelchair for the beneficiary. The physician must then
                         review and approve the supplier’s recommendation.
                         Medicare Reimbursement for Power Wheelchairs
                         Suppliers submit claims to Medicare for power wheelchairs using
                         Healthcare Common Procedure Coding System codes (“procedure
                         codes”). Medicare determines the highest dollar amount it will allow
                         (“fee schedule amount”) for each procedure code. Medicare reimburses
                         the supplier 80 percent of the allowed amount and the beneficiary is
                         responsible for the remaining 20 percent.

                         Medicare’s fee schedule amounts include reimbursement for the
                         supplier’s power wheelchair acquisition cost and also for supplier
                         services, such as assembling and delivering the power wheelchair and
                         educating the beneficiary about its use. 11 Medicare reimburses
                         suppliers under separate procedure codes for wheelchair options and



                           7 CMS Medicare National Coverage Determinations Manual, Pub. No. 100-03, ch.1,
                         § 280.3. Last modified in August 2005. Available online at
                         http://www.cms.hhs.gov/manuals/downloads/ncd103c1_Part4.pdf. Accessed on March 17,
                         2009.
                           8 Mobility-related activities of daily living include toileting, feeding, dressing, grooming,

                         and bathing in customary locations within the home.
                           9 Medicare covers power wheelchairs under a capped rental arrangement. The

                         beneficiary may choose to rent or purchase the power wheelchair. However, Medicare
                         beneficiaries typically choose to purchase power wheelchairs. In the first half of 2007, new
                         purchases accounted for 95 percent of all Medicare power wheelchair expenditures.
                           10 Local coverage determinations issued by Medicare contractors require a physician or
                         other treating practitioner to conduct a beneficiary examination to assess the beneficiary’s
                         need for a power wheelchair before prescribing it. The supplier must also conduct an
                         assessment of the beneficiary’s home to determine whether it is conducive to power
                         wheelchair usage. Beneficiaries who receive a complex rehabilitation power wheelchair
                         must have an additional specialty evaluation.
                           11Local Coverage Determination for Power Mobility Devices by Durable Medical
                         Equipment Medicare Administrative Contractors for Jurisdictions A, B, C, and D,
                         “Non-Medical Necessity Coverage and Payment Rules.”



      OEI-04-07-00400    POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES        2
I N T R O D       U C T   I O N




                       accessories, such as specialty controllers, power-operated tilt and recline
                       systems, armrests, and batteries.
                       CMS’s current fee-setting methodology. The current power wheelchair fee
                       schedule amounts are based on manufacturer-suggested retail prices
                       (MSRP). 12 Manufacturers submit the MSRP for a power wheelchair
                       model to Medicare as part of the model’s coding review. 13 Medicare does
                       not receive information on suppliers’ acquisition costs and other costs
                       and discounts associated with acquiring power wheelchairs.
                       Competitive Bidding Acquisition Program. Under the Competitive Bidding
                       Acquisition Program, CMS uses supplier-submitted bids to establish
                       reimbursement amounts for power wheelchairs and other included
                       DME, prosthetics, orthotics, and supplies (DMEPOS). The program’s
                       primary goals include reducing the amount Medicare and its
                       beneficiaries pay for these items and creating a payment structure that
                       is more reflective of a competitive market. Two weeks after CMS
                       implemented the Competitive Bidding Acquisition Program in July
                       2008, Congress passed the Medicare Improvements for Patients and
                       Providers Act of 2008, delaying and reforming the program. 14
                       Medicare and beneficiary payments under the original round of bidding
                       would have decreased by an average of 26 percent across all included
                       DME categories, saving up to an estimated $1 billion annually upon
                       expansion to 80 metropolitan areas. 15 16 To offset the cost savings lost
                       by the Competitive Bidding Acquisition Program’s delay, Congress




                         12 CMS Pub. No. 11272P, “2006 Fee Schedule Amounts for Power Mobility Devices Have

                       Been Refined,” November 2006.
                         13 Medicare deflates MSRPs to the base year of the fee schedule (1986) and reinflates

                       them using the Consumer Price Index for All Urban Consumers.
                          14 DMEPOS Competitive Bidding: Announcements and Communications. Available

                       online at
                       http://www.cms.hhs.gov/DMEPOSCompetitiveBid/04_Announcements_and_Communication
                       s.asp. Accessed on August 1, 2008.
                          15“DMEPOS Competitive Bidding - Round One - Weighted Average Savings.” Available
                       online at www.dmecompetitivebid.com. Accessed on May 6, 2008.
                          16“CMS Says Medicare Competitive Bidding Program for Durable Medical Equipment
                       Might Save $1B in 2009,” May 21, 2008. Available online at
                       http://www.kaisernetwork.org/daily_reports/rep_index.cfm?DR_ID=51092. Accessed on
                       November 6, 2008.



     OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   3
I N T R O D      U C T    I O N



                         reduced existing fee schedule amounts for power wheelchairs and other
                         types of DME by 9.5 percent, effective January 1, 2009. 17 18 19
                         After a public comment period, CMS will begin a new round of
                         competitive bidding in October 2009. Although these amounts will
                         apply only to the metropolitan areas included in the Competitive
                         Bidding Acquisition Program, CMS has the authority to use information
                         from the bidding process to adjust payment rates in other localities. 20 21
                         As of August 2009, CMS had not finalized the details of a methodology
                         for adjusting payment rates in other localities.
                         Proposed rule to revise fee-setting methodology. In May 2006, CMS
                         proposed regulations through notice and comment rulemaking that
                         would revise its methodology for setting fee schedule amounts for new
                         DMEPOS items. 22 23 Because CMS cannot ensure that MSRPs reflect
                         the cost of supplying an item, the proposed methodology does not rely
                         upon them. Instead, CMS proposed using functional technology
                         assessments to (1) help substantiate when new items are comparable to
                         items with established fee schedule amounts; or (2) in the event that
                         new items are not comparable to items with established fee schedule
                         amounts, determine an amount based on a comparative cost analysis of
                         similar products on the market. As of August 2009, CMS had not
                         finalized this proposal.
                         Inherent reasonableness authority. CMS may use its inherent
                         reasonableness authority to deviate from standard payment
                         methodologies if they result in payment amounts that are determined to


                           17 “The Medicare Improvements for Patients and Providers Act of 2008: Delay and

                         Reform of the Medicare DMEPOS Competitive Bidding Program.” Available online at
                         http://www.lifescienceslegalupdate.com/2008/07/articles/health-care/medicare-medicaid/the-
                         medicare-improvements-for-patients-and-providers-act-of-2008-delay-and-reform-of-the-
                         medicare-dmepos-competitive-bidding-program/. Accessed on August 1, 2008.
                           18 After 2009, the fee schedule amounts will be adjusted according to annual increases in

                         the Consumer Price Index for All Urban Consumers.
                           19 Congress excluded complex rehabilitation power wheelchairs in HCPCS
                         K0848–K0864 from future competitive bidding.
                           20 Social Security Act, § 1834(a)(1)(F)(ii), Medicare Improvements for Patients and

                         Providers Act of 2008, §§ 154(a)(3 and 4).
                           21 CMS must consider variations in the costs of services and items when adjusting

                         payment rates in localities outside the Competitive Bidding Acquisition Program.
                           22 71 Fed. Reg. 25654, 25688 (May 1, 2006).
                           23 According to the proposed rule, the revised methodology would apply even to those
                         items in the Competitive Bidding Acquisition Program, until bids for those items are
                         available.



      OEI-04-07-00400    POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   4
I N T R O D    U C T     I O N




                         be grossly excessive or deficient. 24 For example, CMS may use its
                         inherent reasonableness authority when payments are “grossly higher
                         or lower than acquisition or production costs for the category of items or
                         services.” 25 However, CMS must show that special payment limits
                         established under its inherent reasonableness authority are realistic
                         and equitable.
                         Supplier Acquisition Costs for Power Wheelchairs
                         Suppliers incur costs to purchase power wheelchairs and perform
                         services in conjunction with providing them to Medicare beneficiaries.
                         Suppliers also incur general business costs, such as staff salaries and
                         facility maintenance.

                         Medicare’s 2007 fee schedule amounts were criticized by some power
                         wheelchair suppliers. They claimed that the amounts do not cover the
                         costs of purchasing and providing the power wheelchairs while allowing
                         them to earn a reasonable profit. 26
                         Acquisition costs. Suppliers purchase power wheelchairs from
                         manufacturers or distributors. The manufacturer or distributor may
                         offer volume or prompt pay discounts, rebates, and other incentives that
                         decrease the suppliers’ acquisition costs. Suppliers may also pay for the
                         cost of shipping the power wheelchair to their facilities and other
                         charges, such as a fuel surcharge, which increase the acquisition costs.
                         Supplier services. Medicare coverage policy requires that a supplier
                         perform a home assessment to verify that the beneficiary can maneuver
                         the power wheelchair in the home, ensure delivery of the power
                         wheelchair, and educate the beneficiary on how to use it safely and
                         effectively. 27 28 In addition, as needed, suppliers should answer
                         questions from the beneficiary about the power wheelchair and repair or
                         replace the power wheelchair according to its warranty. 29 Medicare


                           24   42 CFR § 405.502(g).
                           25   Ibid.
                           26 “Power Wheelchair Industry Lines Up 44 House Members Opposing Medicare Fee
                         Cut,” November 3, 2006. Available online at
                           http://www.seniorjournal.com/NEWS/Medicare/6-11-03-PowerWheelchair.htm. Accessed
                         on April 16, 2007.
                           27 Local Coverage Determination for Power Mobility Devices by DME Medicare

                         Administrative Contractors for Jurisdictions A, B, C, and D, “Documentation
                         Requirements.”
                           28   42 CFR §§ 424.57(c)(12).
                           29   42 CFR §§ 424.57(c)(6) and (13).



       OEI-04-07-00400   POWER WHEELCHAIRS    IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   5
I N T R O D     U C T   I O N



                        requires that a supplier maintain documentation to support performing
                        the home assessment, the power wheelchair’s delivery, and educating
                        the beneficiary, but not other required services.

                        In addition, to obtain Medicare billing privileges, suppliers must meet
                        certain quality standards. 30 For example, suppliers are required to
                        “provide the beneficiary with appropriate equipment for trial and
                        simulation, when necessary”; “verify that seating, positioning and
                        specialty assistive technology have been evaluated and documented in
                        the beneficiary’s record”; and provide “follow-up services to the
                        beneficiary and/or caregiver(s), consistent with the type(s) of equipment
                        provided, and recommendations from the prescribing physician.” 31 32
                        Power Wheelchair Types
                        Medicare covers more than 650 power wheelchair models. 33 Medicare
                        conducts coding reviews of model information submitted by
                        manufacturers and assigns each model to 1 of Medicare’s 42 power
                        wheelchair procedure codes (K0813–K0864). 34 The procedure code
                        assignment is based on the model’s performance, patient weight
                        capacity, seat type, portability, and power seating system capability. 35
                        Two types of power wheelchairs, standard and complex rehabilitation,
                        accounted for over 80 percent of all Medicare power wheelchair
                        expenditures in the first half of 2007. These are covered by Medicare
                        under 27 procedure codes, which include 395 power wheelchair models.
                        Standard power wheelchairs. The most frequently reimbursed procedure
                        code, K0823, accounted for nearly three-quarters of Medicare’s power




                          30The Medicare Improvements for Patients and Providers Act of 2008 requires all
                        DMEPOS suppliers to meet quality standards for Medicare accreditation by September 30,
                        2009.
                          31 DMEPOS Supplier Quality Standards. Available online at
                        http://www.cms.hhs.gov/MedicareProviderSupEnroll/Downloads/DMEPOSAccreditationSta
                        ndards.pdf. Accessed on December 5, 2008.
                          32 The requirement pertaining to equipment trials applies only to suppliers of complex

                        rehabilitation power wheelchairs.
                         33 Medicare Pricing, Data Analysis, and Coding (PDAC) contractor, Motorized

                        Wheelchair Product Classification List, July 16, 2009.
                          34 Medicare has not assigned power wheelchairs to procedure codes K0817–K0819,

                        K0832–K0834, and K0844–K0847.
                          35 Statistical Analysis DME Regional Carrier, “Power Mobility Device Coding

                        Guidelines,” August 3, 2006.



      OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   6
I N T R O D       U C T   I O N


                       wheelchair claims and expenditures in the first half of 2007. 36
                       Medicare covers 98 power wheelchair models under procedure code
                       K0823. 37 We refer to K0823 power wheelchairs as “standard power
                       wheelchairs” in this report.

                       Standard power wheelchairs are designed for daily use to provide basic
                       mobility for persons weighing less than 300 pounds and feature an
                       automotive-style seat. Accessories, such as armrests and oxygen tank
                       carriers, may be added to standard power wheelchairs. However,
                       standard power wheelchairs cannot be upgraded with power options
                       (e.g., a powered seating system) or many other electronic features (e.g.,
                       a device to allow the user to control their chair by sipping and puffing
                       through a straw). 38 In the first half of 2007, standard power
                       wheelchairs were supplied with an average of two accessories. 39
                       Medicare’s average allowed amount for a standard power wheelchair
                       accessory was $234.

                       Medicare’s fee schedule amount for standard power wheelchairs during
                       the first half of 2007 was $4,024. The average reimbursement amounts
                       for standard power wheelchairs under the original round of the
                       Competitive Bidding Acquisition Program was $3,073, 24 percent lower
                       than the 2007 fee schedule amount. 40 In January 2009, to offset the
                       costs savings lost by the delay of the Competitive Bidding Acquisition
                       Program, the fee schedule amount for standard power wheelchairs was
                       reduced by 9.5 percent, to $3,641.
                       Complex rehabilitation power wheelchairs. Complex rehabilitation power
                       wheelchairs accounted for less than 7 percent of Medicare power




                         36 OIG analysis of claims from the National Claims History file submitted under

                       procedure code K0823 with dates of service from January 1 to June 30, 2007, processed as of
                       June 30, 2007.
                          37
                           Medicare PDAC contractor, Motorized Wheelchair Product Classification List, July 16,
                       2009.
                          38Local Coverage Determination for Power Mobility Devices by DME Medicare
                       Administrative Contractors for Jurisdictions A, B, C, and D, “Code Specific Requirements”
                       and “Definitions.”
                          39
                           OIG analysis of claims from National Claims History file associated with claims
                       submitted under procedure code K0823 with dates of service from January 1 to June 30,
                       2007, processed as of June 30, 2007.
                         40 OIG analysis of Competitive Bidding Acquisition Program prices. The price represents

                       the average of prices for all 10 Metropolitan Statistical Areas.



     OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   7
I N T R O D      U C T     I O N



                         wheelchair claims and expenditures in the first half of 2007. 41 Medicare
                         covers 297 complex rehabilitation power wheelchair models under
                         26 procedure codes. 42 43
                         To receive a complex rehabilitation power wheelchair, a beneficiary
                         must meet criteria beyond those required to receive a standard power
                         wheelchair. For example, the beneficiary’s mobility limitation must be
                         because of a neurological condition, muscle disease, or skeletal
                         deformity.

                         Accessories, such as armrests and oxygen tank carriers, may be added
                         to complex rehabilitation power wheelchairs. These wheelchairs can be
                         upgraded with power options and other electronic features (referred to
                         together as “power options”) to accommodate beneficiaries’ specific
                         mobility needs. 44 In the first half of 2007, complex rehabilitation power
                         wheelchairs were supplied with an average of five power options and/or
                         accessories. 45 Medicare’s average allowed amount for a power option or
                         an accessory supplied with a complex rehabilitation power wheelchair
                         was $995.

                         The fee schedule amounts for complex rehabilitation power wheelchair
                         procedure codes ranged from $4,132 to $11,965 in 2007.
                         Reimbursement amounts for complex rehabilitation power wheelchairs,
                         power options, and accessories under the original round of the
                         Competitive Bidding Acquisition Program were an average of 15 percent
                         lower than the 2007 fee schedule amounts. 46 In January 2009, to offset
                         the cost savings lost by the delay of the Competitive Bidding Acquisition




                           41 OIG analysis of claims from National Claims History file submitted under procedure

                         codes K0835–K0864 with dates of service from January 1 to June 30, 2007, processed as of
                         June 30, 2007.
                           42 DME, Prosthetics, Orthotics, and Supplies Supplier Quality Standards, August 2007,
                         page 11. Complex rehabilitation procedure codes are K0835 through K0843 and K0848
                         through K0864.
                           43Medicare PDAC contractor, Motorized Wheelchair Product Classification List, July 16,
                         2009.
                           44Local Coverage Determination for Power Mobility Devices by DME Medicare
                         Administrative Contractors for Jurisdictions A, B, C, and D, “Code Specific Requirements.”
                           45 OIG analysis of claims from National Claims History file associated with claims
                         submitted under procedure codes K0835–K0864 with dates of service from January 1 to
                         June 30, 2007, processed as of June 30, 2007.
                           46 “DMEPOS Competitive Bidding-Round One-Weighted Average Savings.” Available

                         online at www.dmecompetitivebid.com. Accessed May 6, 2008.



     OEI-04-07-00400     POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   8
I N T R O D    U C T       I O N




                             Program, complex rehabilitation power wheelchair fee schedule
                             amounts were reduced by 9.5 percent, to between $3,739 and $10,828.
                             Prior Office of Inspector General Work
                             Prior OIG reviews have found that consumers and suppliers can buy
                             power wheelchairs for less than Medicare and its beneficiaries. OIG
                             found that the Medicare fee schedule amounts for power wheelchairs
                             exceeded median prices available to consumers over the Internet by a
                             median of 45 percent during the first quarter of 2007. 47 Standard power
                             wheelchairs were available on the Internet for a median price of $2,959,
                             which Medicare’s fee schedule amount of $4,024 exceeded by 36 percent.

                             Another OIG report found that Medicare’s 2003 fee schedule amount for
                             the most frequently reimbursed power wheelchair procedure code at the
                             time (K0011) exceeded prices negotiated by suppliers with
                             manufacturers and distributors by 242 percent. 48 OIG recommended
                             that CMS use the pricing information obtained as part of the review to
                             determine whether an inherent reasonableness review for K0011 power
                             wheelchairs was appropriate.


                             METHODOLOGY
                             Scope
                             We reviewed the acquisition costs of power wheelchairs supplied to
                             Medicare beneficiaries in the first half of 2007. In addition, we
                             reviewed the services that suppliers reported performing in conjunction
                             with providing these power wheelchairs. We did not determine the cost
                             of performing these services or other general supplier business
                             expenses, such as billing, accreditation, staff salaries, or facility
                             maintenance.

                             This evaluation focuses on standard and complex rehabilitation power
                             wheelchairs. We also reviewed the acquisition costs of certain power
                             options and accessories supplied with complex rehabilitation power
                             wheelchairs. We did not include in our analysis the acquisition cost of
                             accessories supplied with standard power wheelchairs because




                               47 Department of Health and Human Services, OIG, “A Comparison of Medicare Program

                             and Consumer Internet Prices for Power Wheelchairs,” OEI-04-07-00160, October 2007.
                              48 Department of Health and Human Services, OIG, “A Comparison of Prices for Power

                             Wheelchairs in the Medicare Program,” OEI-03-03-00460, April 2004.



         OEI-04-07-00400     POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   9
I N T R O D     U C T   I O N




                        beneficiaries who received standard power wheelchairs needed fewer,
                        less expensive accessories.
                        Sample Selection
                        Our population consisted of new, nonrental standard and complex
                        rehabilitation power wheelchair claims from CMS’s National Claims
                        History DME Standard Analytical File with dates of service during the
                        first half of 2007. 49 We removed all claims submitted by suppliers that
                        were not actively enrolled in Medicare. 50 We also removed claims
                        associated with suppliers or prescribing providers under investigation
                        by OIG. 51 After removing these claims, the population from which we
                        sampled included 93 percent of standard and 91 percent of complex
                        rehabilitation power wheelchair claims.

                        We grouped the resulting population into three strata: 52
                               1. standard power wheelchair claims submitted by low-volume
                                  suppliers (those that submitted fewer than 10 standard power
                                  wheelchair claims in the first half of 2007),

                               2. standard power wheelchair claims submitted by high-volume
                                  suppliers (those that submitted 10 or more standard power
                                  wheelchair claims in the first half of 2007), and

                               3. complex rehabilitation power wheelchair claims.




                           49 The final date to submit claims with dates of service during the first half of 2007 was

                        June 30, 2008. We analyzed claims CMS had processed, as of June 30, 2007. Therefore, the
                        population of claims from which we sampled does not include all claims with dates of
                        service during the first half of 2007. Suppliers had submitted 79 percent of claims at the
                        time we selected our sample.
                          50  Pursuant to 42 CFR § 424.520(a), to maintain Medicare billing privileges after initial
                        enrollment, suppliers must comply with Medicare regulations and relevant Federal and
                        State requirements. Pursuant to 42 CFR § 424.535, Medicare may revoke a supplier’s
                        billing privileges because of a felony, noncompliance with enrollment requirements, etc.
                        Pursuant to 42 CFR § 424.540, Medicare also may deactivate a supplier’s billing privileges
                        when the supplier does not submit a claim for a full year or when the supplier fails to report
                        a change to the information provided on the enrollment application.
                          51 We removed 3,430 standard and 301 complex rehabilitation power wheelchair claims

                        because of suppliers’ Medicare enrollment status or an ongoing investigation. After
                        removing these, our population consisted of 43,133 standard and 3,001 complex
                        rehabilitation power wheelchair claims.
                          52  We chose to divide the standard power wheelchair population at a supplier volume of
                        10 claims during the first half of 2007 based on the distribution of suppliers and claims.
                        Twenty-five percent of suppliers had 10 or more claims and these accounted for 83 percent of
                        all standard power wheelchair claims.



      OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   10
I N T R O D       U C T   I O N


                       We selected 375 total claims by selecting simple random samples of
                       125 claims from each stratum. Appendix A provides the number of
                       claims; suppliers; and Medicare-allowed amounts for the population and
                       sample, by category.
                       Data Collection
                       We requested from suppliers documentation to support their acquisition
                       costs (i.e., the manufacturer’s invoice) and the services that they
                       reported performing in conjunction with providing these power
                       wheelchairs. 53 Before mailing the requests, we solicited feedback on our
                       documentation request from three power wheelchair suppliers.
                       Representatives of these companies reviewed our documentation
                       request to ensure the language was clear to suppliers.

                       We obtained suppliers’ addresses from the National Supplier
                       Clearinghouse. We mailed up to three requests to the suppliers of
                       power wheelchairs in our sample and telephoned nonresponding
                       suppliers to ensure that they had received the requests. Suppliers
                       submitted documentation for 364 sample claims. We will forward a list
                       of nonresponding suppliers to CMS.

                       We removed six claims for which the suppliers did not submit the
                       manufacturers’ invoices. We also removed 14 claims for power
                       wheelchairs that the manufacturer supplied directly to the beneficiaries
                       because no invoices existed for our review. Finally, we removed
                       42 claims because we could not confirm that they were coded correctly. 54
                       We discovered miscoded claims because the model listed on the invoice
                       was not one of the Medicare-approved models for the claim’s procedure
                       code. We will forward information about these miscoded claims to CMS.
                       After removing these claims, our sample consisted of 302 claims.
                       Documentation of supplier acquisition costs. We requested that suppliers
                       provide the power wheelchair invoices so that we could determine the
                       prices they paid for the power wheelchairs. We requested
                       documentation to support all discounts, rebates, or other price




                          53 The invoice is the itemized bill from the manufacturer or distributor, containing
                       individual prices, the total charge, and the terms.
                          54Forty-five claims were miscoded, and five were potentially miscoded. However, we did
                       not remove eight claims for complex rehabilitation power wheelchairs that should have
                       been submitted under other complex rehabilitation power wheelchair procedure codes
                       because, although they were miscoded, they were still within the scope of this report.



     OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   11
I N T R O D    U C T     I O N




                         reductions that were not included in the invoice prices, as well as
                         additional charges paid by the suppliers.

                         In addition, we requested invoices for many of the power options and
                         accessories supplied with complex rehabilitation power wheelchairs in
                         our sample. We included in our evaluation power options or accessories
                         that (1) were supplied with more complex rehabilitation power
                         wheelchairs than standard power wheelchairs in the first half of
                         2007 and (2) accounted for over 0.1 percent of the total expenditures for
                         all complex rehabilitation power options and accessories during that
                         time. These power options and accessories accounted for 91 percent of
                         expenditures for all complex rehabilitation power options and
                         accessories. Appendix B provides the number of complex rehabilitation
                         power wheelchairs in our sample supplied with each power option or
                         accessory, the items’ descriptions, and the items’ fee schedule amounts.
                         Documentation of supplier services. We asked suppliers to provide
                         documentation to support the services they performed in conjunction
                         with providing the power wheelchairs in our sample. To capture
                         services performed over a range of time, we asked suppliers to report
                         services that they performed before December 31, 2007. We accepted
                         services performed at any time before the power wheelchair’s delivery,
                         during its delivery, and after its delivery (until December 31, 2007).

                         We asked suppliers about the following types of services:
                         •   service(s) performed as part of the initial evaluation for the
                             wheelchair and/or home assessment;
                         •   service(s) required to assemble the wheelchair;

                         •   the wheelchair’s delivery;

                         •   service(s) performed during the wheelchair’s delivery (e.g.,
                             beneficiary or caregiver education and minor adjustments);
                         •   service(s) performed as part of equipment repair and/or
                             maintenance;
                         •   follow-up seating, positioning, or programming adjustment(s); and

                         •   response(s) to beneficiary or caregiver questions.

                         We also provided suppliers the opportunity to report services other than
                         those listed in our documentation request and services for which they
                         were unable to provide documentation.



       OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   12
I N T R O D    U C T     I O N




                         Data Analysis
                         We analyzed the data that suppliers submitted for these power
                         wheelchairs and projected the results. 55 Appendix C provides the
                         confidence intervals for all estimates.
                         Supplier acquisition costs. Starting with the price on the invoice, we
                         added any supplier-reported costs to ship the power wheelchair from the
                         manufacturer or distributor to the supplier’s facility (if not included in
                         the invoice price) and subtracted any discounts, rebates, or other
                         incentives. The final calculated price represents the supplier’s
                         acquisition cost for the power wheelchair.
                         Using the same method, we determined the acquisition costs for
                         complex rehabilitation power options and accessories. 56 Then, we
                         determined the acquisition cost for each complex rehabilitation
                         “package” (the power wheelchair plus its power options and accessories).

                         We determined the range of supplier acquisition costs from the sample
                         data. We projected mean acquisition costs based on sample data. 57 We
                         also determined Medicare’s average allowed amounts using population
                         data.
                         Supplier services. We analyzed a total of 1,622 supplier services. In
                         addition to services that suppliers were able to document, this total
                         includes 356 services that suppliers reported but did not support with
                         documentation. We also included 40 services that suppliers did not
                         report but that were evident in our review of the documents submitted.
                         We did not include 178 services associated with power wheelchairs that
                         we identified as miscoded. 58 We also did not include 100 reported
                         services, including billing activities outside the scope of our review and
                         services for which the suppliers were reimbursed separately.




                           55 We used SAS and SUDAAN survey data analysis software to project our sample
                         results nationally.
                           56 We did not receive invoices for 18 of the 364 options and accessories supplied with
                         complex rehabilitation power wheelchairs in our sample. For these 18 items, we
                         substituted the maximum acquisition cost from other invoices for the same type of item.
                         When no other invoices were available, we substituted the fee schedule amount. Therefore,
                         we produced estimates that would likely be higher than the actual acquisition costs.
                           57   All means are reported as “averages” in this report.
                           58 Because our analysis does not include miscoded claims, services associated with these
                         claims do not affect the average numbers of services suppliers reported performing.



       OEI-04-07-00400   POWER WHEELCHAIRS    IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   13
I N T R O D      U C T    I O N



                         We grouped the services into four categories, based on the service types
                         indicated by the supplier:

                                1. Services performed prior to delivery (“predelivery services”). We
                                   allowed suppliers to report services performed at any time before
                                   the power wheelchairs’ delivery.

                                2. Services performed on the day the power wheelchair was
                                   delivered (“during-delivery services”).

                                3. Services performed over an average of 9 months after delivery
                                   (“follow-up services”). 59
                                4. Services not referenced in our request, supplier responses to
                                   beneficiary questions, and home assessments with insufficient
                                   documentation to categorize them as pre- or during-delivery
                                   services (“other services”). Suppliers may have performed these
                                   services at any phase of supplying the power wheelchairs.

                         See Appendix D for descriptions of the service types and the categories
                         to which services were assigned.

                         We analyzed the reported services to determine: the average number of
                         services that suppliers reported performing for power wheelchairs, by
                         service category and in total; the frequency with which suppliers
                         reported performing each service; and services in each category, as a
                         percentage of all services that suppliers reported performing. We
                         compared the results of each of these analyses by supplier volume and
                         by standard versus complex rehabilitation power wheelchairs.
                         Limitations
                         The acquisition costs for 38 percent of power wheelchairs in our sample
                         included batteries. The invoices did not list battery costs separately;
                         therefore, we were unable to subtract their cost from the power
                         wheelchair acquisition costs. Medicare reimburses batteries separately,
                         allowing between $60 and $372 per wheelchair for batteries. 60 61




                           59The minimum time after the power wheelchairs’ delivery and until December 31, 2007,
                         was 6 months and the maximum was 1 year.
                           60 Power wheelchairs require two batteries for operation. Power wheelchair batteries are
                         reimbursed by Medicare under procedure codes K0733, E2360–E2365, E2371, and E2372.
                         However, Medicare coverage policy states that Medicare will deny nonsealed batteries
                         (procedure codes E2360, E2362, E2364, and E2372) as not medically necessary.
                           61   DMEPOS 2007 Fee Schedule.



      OEI-04-07-00400    POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   14
I N T R O D     U C T   I O N



                        We provided suppliers the opportunity to explain if they were unable to
                        provide documentation to support services they performed in
                        conjunction with providing the power wheelchair. We included in our
                        analysis all undocumented services that suppliers reported. However,
                        suppliers may not have reported all services for which they were unable
                        to provide documentation. We did not independently verify that
                        suppliers performed the services they reported.

                        Many supplier services are performed on an as-needed basis; therefore,
                        a service rate of less than 100 percent does not imply supplier neglect.
                        Standards
                        This study was conducted in accordance with the “Quality Standards for
                        Inspections” approved by the Council of the Inspectors General on
                        Integrity and Efficiency.




      OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   15
Δ   F I N D I N G S


                                                                Medicare and its beneficiaries paid
     Medicare allowed an average of $4,018 for                  almost four times the average amount
standard power wheelchairs that cost suppliers                  paid by suppliers to acquire standard
    an average of $1,048 in the first half of 2007              power wheelchairs during the first half
                                                                of 2007. Medicare and its beneficiaries
                                paid an average of $4,018 for standard power wheelchairs, which
                                accounted for nearly three-quarters of Medicare’s power wheelchair
                                claims and expenditures in the first half of 2007. Based on the
                                manufacturer invoices, suppliers paid between $608 and $2,821 to
                                purchase standard power wheelchairs that they supplied to Medicare
                                beneficiaries. The average supplier acquisition cost was $1,048. 62 The
                                beneficiary’s copayment covered 77 percent of the average acquisition
                                cost. 63
                                Table 1 compares suppliers’ average acquisition cost for standard power
                                wheelchairs with Medicare and beneficiary payments under the
                                2007 and 2009 fee schedules and the Competitive Bidding Acquisition
                                Program. Acquisition costs do not include suppliers’ indirect costs, such
                                as the cost of performing services or other supplier business expenses.


                   Table 1. Standard Power Wheelchair Price Comparison
                                                         Average
                                                          Supplier             Medicare’s         Medicare’s Average           Medicare’s 2009
                                                       Acquisition        Average Allowed         Competitive Bidding            Fee Schedule
                       Pricing Information            Cost* (2007)         Amount (2007)               Price** (2008)                  Amount

                             Average price                  $1,048                    $4,018                      $3,073                    $3,641

                   Comparison price, as a
                    percentage of supplier                        NA                    383%                       293%                     347%
                          acquisition cost
                  * OIG analysis of supplier acquisition costs, 2008.
                  ** Average of10 Competitive Bidding Area single payment amounts for standard power wheelchairs under the Competitive Bidding
                  Acquisition Program’s cancelled Round 1.


                                Medicare’s average allowed amount in the first half of 2007 ($4,018) was
                                383 percent of suppliers’ average acquisition cost for standard power
                                wheelchairs. In comparison, Medicare’s average payment under the
                                Competitive Bidding Acquisition Program ($3,073) would have been


                                   62   See Appendix E for median supplier acquisition costs and confidence intervals.
                                   63 The average beneficiary copayment for standard power wheelchairs was $804 during
                                the first half of 2007.



         OEI-04-07-00400        POWER WHEELCHAIRS      IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS        AND   SERVICES     16
 F   I N D I N G            S



                                293 percent of suppliers’ average acquisition cost. 64 Although
                                Medicare’s fee schedule amount was reduced to $3,641 to offset the
                                Competitive Bidding Acquisition Program’s delay, the 2009 fee schedule
                                amount exceeds the average competitively bid price by $568. Medicare’s
                                2009 fee schedule amount is 347 percent of suppliers’ average
                                acquisition cost. 65
                                Low-volume suppliers paid more than high-volume suppliers for standard
                                power wheelchairs
                                Table 2 illustrates the differences in acquisition costs that high- and
                                low-volume suppliers paid.

           Table 2: Price Comparisons for Standard Power Wheelchairs
                                                                                                                      Medicare’s Average
                                                   Medicare’s              Average                                   Allowed Amount as a
                                                    Average                Supplier                                         Percentage of
           Volume of Standard                        Allowed             Acquisition      Range of Supplier             Suppliers’ Average
           Power Wheelchair Sales                    Amount                    Cost       Acquisition Costs*              Acquisition Cost

           High-volume suppliers                        $4,020                  $1,006         $608-$1,733                           400%
           Low-volume suppliers                         $4,008                  $1,249         $770-$2,821                           321%
           All suppliers                                $4,018                  $1,048         $608-$2,821                           383%
          * Figures are from sample results and are not projected nationally.
          Source: OIG analysis of supplier acquisition costs, 2008.

                                High-volume suppliers paid between $608 and $1,733 for standard
                                power wheelchairs in the first half of 2007, or an average of $1,006.
                                Low-volume suppliers paid between $770 and $2,821, or an average of
                                $1,249. 66



Medicare allowed an average of $11,507 for                                      Medicare and its beneficiaries paid almost
                                                                                two times the average amount paid by
  complex rehabilitation power wheelchair
                                                                                suppliers to acquire complex rehabilitation
packages that cost suppliers an average of
                                                                                power wheelchair packages during the first
             $5,880 in the first half of 2007                                   half of 2007. Medicare and its


                                   64 Single payment amounts for standard power wheelchairs based on selected bids under
                                the Competitive Bidding Acquisition Program’s cancelled Round 1 ranged from $2,756 to
                                $3,601.
                                   65 These estimates do not account for changes in supplier acquisition costs since the first
                                half of 2007.
                                   66The difference between high- and low-volume suppliers’ average acquisition costs for
                                standard power wheelchairs is statistically significantly at the 95-percent confidence level.
                                See Appendix C for the difference estimate, confidence intervals, and p-values.



      OEI-04-07-00400           POWER WHEELCHAIRS      IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   17
F   I N D I N G           S




                                 beneficiaries paid an average of $11,507 for complex rehabilitation
                                 power wheelchair packages, which include the wheelchair and its power
                                 options and accessories. Suppliers’ acquisition costs ranged between
                                 $1,921 and $14,698 per package. The average supplier acquisition cost
                                 was $5,880. 67 Beneficiaries’ copayments covered 39 percent of the
                                 supplier’s acquisition cost for the package, on average. 68
                                 Table 3 compares Medicare-allowed amounts and supplier acquisition
                                 costs for complex rehabilitation power wheelchair packages. Medicare’s
                                 average allowed amount was 196 percent of suppliers’ average
                                 acquisition cost during the first half of 2007. After the 9.5-percent fee
                                 schedule reduction in January 2009, Medicare’s average allowed
                                 amount is 177 percent of suppliers’ average acquisition cost. 69 70


            Table 3: Price Comparisons for Complex Rehabilitation Power Wheelchair Packages
                                                 Medicare’s             Average                                      Medicare’s Average
                                                  Average               Supplier       Range of Supplier           Allowed Amount as a
                                                   Allowed            Acquisition            Acquisition        Percentage of Suppliers’
            Item(s)                                Amount                 Cost**                Costs***        Average Acquisition Cost
            Power wheelchair*                         $5,354               $2,565           $1,049-$5,495                             209%
            Power options and
            accessories                               $6,153               $3,316             $75-$10,235                             186%
                          Package total             $11,507                $5,880         $1,921-$14,698                              196%
            * Includes only those complex rehabilitation power wheelchairs supplied as part of a package.
            ** Column does not sum because of rounding.
            *** Figures are from sample results and are not projected nationally.
            Source: OIG analysis of supplier acquisition costs, 2008.




                                 Medicare allowed an average of $5,354 for complex rehabilitation power
                                 wheelchairs that cost suppliers an average of $2,565
                                 Medicare and its beneficiaries paid over two times, or 209 percent of,
                                 the average amount paid by suppliers to acquire complex rehabilitation
                                 power wheelchairs that were supplied with power options and
                                 accessories during the first half of 2007. Suppliers’ acquisition costs

                                    67   The range values are from the sample and are not projected nationally.
                                    68 The average beneficiary copayment for complex rehabilitation power wheelchair
                                 packages was $2,301 during the first half of 2007.
                                    69 This estimate does not account for any changes in supplier acquisition costs since the
                                 first half of 2007.
                                    70The estimated, average allowed amount is $10,414. This estimate assumes that
                                 Medicare beneficiaries received the same distribution of complex rehabilitation procedure
                                 codes after January 2009 as in the first half of 2007.



       OEI-04-07-00400           POWER WHEELCHAIRS      IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   18
F   I N D I N G        S




                            ranged between $1,049 and $5,495 per chair, and the average
                            acquisition cost was $2,565. 71 Medicare’s complex rehabilitation fee
                            schedule amounts ranged from $4,132 to $11,965 in the first half of
                            2007. Medicare and its beneficiaries paid an average of $5,354 for these
                            power wheelchairs.
                            Medicare allowed an average of $6,153 for the power options and
                            accessories supplied with complex rehabilitation power wheelchairs that
                            cost suppliers an average of $3,316
                            Medicare and its beneficiaries paid 186 percent of the average amount
                            paid by suppliers to acquire complex rehabilitation power options and
                            accessories during the first half of 2007. Power options and accessories
                            included powered tilt and recline systems, headrests, and electronic
                            connections between power options and the wheelchair controllers.

                            Suppliers’ acquisition costs ranged between $75 and $10,235, and the
                            average acquisition cost was $3,316. 72 Medicare and its beneficiaries
                            paid an average of $6,153.



                                                           Suppliers reported performing an
Suppliers of standard power wheelchairs reported           average of five services prior to,
 performing an average of five services per chair,         during, and within an average of
  while suppliers of complex rehabilitation power          9 months after delivering standard
     wheelchair packages reported performing an            power wheelchairs to Medicare
                                                           beneficiaries. Suppliers reported
                       average of seven services
                                                           performing an average of seven
                                                           services in conjunction with providing
                         complex rehabilitation power wheelchair packages. However, suppliers
                         reported performing an average of five services for complex
                         rehabilitation power wheelchairs for which the beneficiaries received no
                         power options or accessories. 73 Appendix F presents the average
                         number of services reported, by wheelchair type and service category.




                              71   The range values are from the sample and are not projected nationally.
                              72   Ibid.
                              73 This estimate’s sample size consists of 30 claims. See Appendix C for the confidence
                            intervals.



          OEI-04-07-00400   POWER WHEELCHAIRS    IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   19
  F   I N D I N G            S



                                      Suppliers reported performing most services prior to and during the power
                                      wheelchairs’ delivery
                                      Predelivery and during-delivery services accounted for 91 percent of
                                      services suppliers reported performing in conjunction with providing
                                      standard power wheelchairs and 82 percent of services they reported
                                      performing for complex rehabilitation power wheelchair packages, as
                                      shown in Figure 1.

                                                                                                   Complex Rehabilitation Power
         Figure 1.                    Standard Power Wheelchairs                                      Wheelchair Packages
Service Categories
as a Percentage of                                 Follow-up                                                Follow-up
       All Services                                 services                                                 services
                                                      5%                                                       11%
      Reported, by                Other services                                          Other services
  Wheelchair Type                      4%                               Predelivery                                                Predelivery
                                                                         services              6%
                                                                                                                                    services
                                                                           27%                                                        37%




                           During-delivery
                              services                                                    During-delivery
                                64%                                                          services
                                                                                               45%

                      Source: OIG analysis of supplier services, 2008.
                      Note: Percentages may not sum to 100 percent because of rounding.



                                      Services that suppliers reported performing prior to delivery. Predelivery
                                      services accounted for 27 percent of services reported for standard
                                      power wheelchairs. The most common predelivery service suppliers
                                      reported performing when providing standard power wheelchairs was
                                      assembling them. 74 Suppliers of 64 percent of standard power
                                      wheelchairs reported assembling the wheelchairs.
                                      Predelivery services accounted for 37 percent of services reported for
                                      complex rehabilitation packages. Suppliers of 75 percent of complex
                                      rehabilitation power wheelchair packages reported performing or
                                      participating in evaluations of the beneficiaries.
                                      Services that suppliers reported performing during delivery. During-delivery
                                      services accounted for 64 percent of services reported for standard


                                         74The difference is statistically different from other predelivery services at the
                                      95-percent confidence level in a multiple comparison test using a Bonferroni threshold of
                                      0.0167.



             OEI-04-07-00400          POWER WHEELCHAIRS     IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS       AND   SERVICES    20
F   I N D I N G     S




                           power wheelchairs and 45 percent of services reported for complex
                           rehabilitation power wheelchair packages.

                           The most common service performed during the delivery of standard
                           and complex rehabilitation power wheelchairs, other than the delivery
                           itself, was education of the beneficiaries or caregivers on the power
                           wheelchairs’ use or maintenance. 75 Suppliers reported educating the
                           beneficiaries or caregivers of standard and complex rehabilitation power
                           wheelchairs at least 90 percent of the time.
                           Suppliers reported performing few follow-up or other types of services
                           Follow-up and all other services accounted for 9 percent of services
                           reported for standard power wheelchairs. 76 Suppliers reported
                           performing maintenance or repairs for 11 percent of standard power
                           wheelchairs. They reported adjusting 5 percent of standard power
                           wheelchairs in the months following delivery.

                           Follow-up and all other services accounted for 17 percent of services
                           reported for complex rehabilitation power wheelchair packages. 77
                           Suppliers reported performing maintenance or repairs on 31 percent of
                           complex rehabilitation power wheelchairs supplied as part of packages.
                           They reported adjusting 27 percent of these wheelchairs.
                           Complex rehabilitation power wheelchair suppliers reported performing
                           twice as many services as standard power wheelchair suppliers at times
                           other than the day of delivery
                           Suppliers reported performing an average of two predelivery, follow-up,
                           and other services for standard power wheelchairs. They reported
                           performing an average of four of these services in conjunction with
                           providing complex rehabilitation power wheelchairs that were part of a
                           package, twice the number that suppliers of standard power
                           wheelchairs reported.

                           Suppliers of complex rehabilitation power wheelchair packages were
                           more likely to report performing or participating in beneficiary
                           evaluations, providing equipment trials for the beneficiaries, and
                           conducting home assessments prior to delivering the wheelchairs.

                              75 The differences are statistically different from other during-delivery services at the

                           95-percent confidence level in a multiple comparison test using a Bonferroni threshold of
                           0.0125.
                             76 We collected data on follow-up services performed during a minimum of 6 months and

                           an average of 9 months after the wheelchairs’ delivery.
                             77   Ibid.



         OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES     21
F   I N D I N G       S




                          Suppliers were also more likely to report performing repairs and
                          maintenance and making follow-up adjustments for complex
                          rehabilitation power wheelchair packages than for standard power
                          wheelchairs. 78 79 Appendix F compares the frequency with which
                          suppliers reported performing each type of service, by wheelchair type.
                          Suppliers reported performing required services most of the time, as well as
                          other services that were performed as needed
                          Suppliers reported performing three required services—delivering the
                          power wheelchairs, providing education, and assessing the homes of
                          beneficiaries—most of the time. Suppliers provided proof of delivery for
                          100 percent of power wheelchairs. Suppliers of both power wheelchair
                          types also reported educating over 90 percent of beneficiaries or
                          caregivers on the use or maintenance of their power wheelchairs.
                          Suppliers of 89 percent of standard power wheelchairs and 80 percent of
                          complex rehabilitation power wheelchairs reported conducting home
                          assessments to verify that the beneficiaries could adequately maneuver
                          the power wheelchairs.

                          In addition, suppliers reported performing other services that Medicare
                          requires on an as-needed basis. For example, suppliers of
                          approximately one-tenth of standard power wheelchairs and one-third
                          of complex rehabilitation power wheelchairs reported performing
                          repairs and maintenance on the power wheelchairs.




                            78 The differences are statistically significant at the 95-percent confidence level using a
                          Bonferroni threshold of 0.0036. See Appendix C for difference estimates, confidence
                          intervals, and p-values.
                            79 Suppliers were more likely to report performing home assessments during delivery of
                          standard power wheelchairs than during delivery of complex rehabilitation power
                          wheelchairs.



        OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   22
Δ   R E C O M M E N D A T I O N S


                         Prior OIG evaluations found that consumers can purchase power
                         wheelchairs at lower prices than Medicare and its beneficiaries. The
                         findings of this evaluation suggest that CMS’s power wheelchair
                         payments and, therefore, its current methodology for developing power
                         wheelchair fee schedule amounts do not reflect actual acquisition costs.
                         Medicare’s fee schedule amounts should be sufficient to cover costs that
                         suppliers incur to purchase and supply power wheelchairs to
                         beneficiaries. However, Medicare and its beneficiaries should not pay
                         amounts that result in suppliers’ excess profit.

                         Based on manufacturer invoices and other documentation we collected
                         from suppliers, we found that Medicare and its beneficiaries paid almost
                         four times the average amount paid by suppliers to acquire standard
                         power wheelchairs during the first half of 2007. Suppliers purchased
                         standard power wheelchairs for an average of $1,048 and reported
                         performing an average of five services in conjunction with providing
                         them in the first half of 2007. Because Medicare allowed an average of
                         $4,018 for standard power wheelchairs, Medicare and its beneficiaries
                         paid suppliers an average of $2,970 beyond the supplier’s acquisition
                         cost to perform an average of five services and cover general business
                         costs.

                         Medicare’s average allowed amount for standard power wheelchairs in
                         the first half of 2007 ($4,018) was 383 percent of suppliers’ average
                         acquisition cost. In comparison, Medicare’s average payment under the
                         Competitive Bidding Acquisition Program ($3,073) would have been
                         293 percent of suppliers’ average acquisition cost. Although Medicare’s
                         fee schedule amount was reduced to $3,641 to offset the Competitive
                         Bidding Acquisition Program’s delay, the 2009 fee schedule amount
                         exceeds the average competitively bid price by $568.

                         Medicare and its beneficiaries paid almost two times the average
                         amount paid by suppliers to acquire complex rehabilitation power
                         wheelchair packages during the first half of 2007. Suppliers purchased
                         complex rehabilitation power wheelchair packages for an average of
                         $5,880 and reported performing an average of seven services in the first
                         half of 2007. Because Medicare allowed an average of $11,507 for
                         complex rehabilitation power wheelchair packages, Medicare and its
                         beneficiaries paid suppliers an average of $5,627 beyond the supplier’s
                         acquisition cost to perform an average of seven services and cover
                         general business costs.



       OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   23
R   E C O    M M E N D A T           I O N



                        Based on these findings, we recommend that CMS:
                        Determine Whether Medicare’s Fee Schedule Amounts for
                        Standard and Complex Rehabilitation Power Wheelchairs Should
                        Be Adjusted
                        CMS should consider the following methods for reviewing fee schedule
                        amounts:

                        •   Use information from the Competitive Bidding Acquisition Program to adjust
                            fee schedule amounts. Medicare’s current fee schedule amount for a
                            standard power wheelchair exceeds the average price established
                            through competitive bidding by $568. Medicare and its beneficiaries
                            would have paid an average of $3,073 under the original round of
                            the Competitive Bidding Acquisition Program. Under the 2009 fee
                            schedule, which was reduced by 9.5 percent to offset the Competitive
                            Bidding Acquisition Program’s delay, Medicare and its beneficiaries
                            pay up to $3,641. CMS should consider using the bids submitted by
                            suppliers when determining whether fee schedule amounts are
                            appropriate.

                        •   Seek legislation to ensure that fee schedule amounts are reasonable and
                            responsive to market changes. CMS’s current methodology for
                            developing power wheelchair fee schedule amounts is based on
                            MSRPs. In May 2006, CMS proposed a revised methodology for
                            setting fee schedule amounts that would not rely upon MSRPs.
                            CMS should continue to develop a new methodology that better
                            reflects actual acquisition costs and is responsive to the market,
                            and use notice and comment rulemaking to implement it. Upon
                            doing so, CMS should consider seeking legislation to apply the
                            new methodology to existing power wheelchair fee schedule
                            amounts.
                        •   Use the results of this evaluation to determine whether an inherent
                            reasonableness review is appropriate. CMS may use its inherent
                            reasonableness authority to set special payment limits when
                            payments are “grossly higher or lower” than acquisition costs.
                            CMS should consider using its inherent reasonableness authority
                            to determine whether power wheelchair fee schedule amounts are
                            appropriate.

                        When setting fee schedule amounts, CMS should consider that
                        supplier acquisition costs and services differ by power wheelchair
                        type. Standard power wheelchairs cost suppliers less, as a percentage


      OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   24
R   E C O    M M E N D A T           I O N


                       of their Medicare payment, than complex rehabilitation power
                       wheelchair packages. In addition, suppliers of complex rehabilitation
                       power wheelchair packages reported performing more services,
                       including twice as many at times other than the day of delivery, than
                       suppliers of standard power wheelchairs.


                       AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                       RESPONSE
                       CMS concurred with our recommendation and noted that the report
                       provides valuable insight on suppliers’ average acquisition costs for
                       standard and complex rehabilitation power wheelchairs. It also noted
                       that it has worked on a number of important regulatory and
                       administrative initiatives related to the coding, payment, and coverage
                       of power wheelchairs in response to the significant growth in
                       expenditures for these items under the Medicare program. The goals of
                       these initiatives are to ensure that beneficiaries have access to the
                       appropriate technology and to improve the appropriateness of
                       Medicare’s payment rates for this equipment.

                       CMS also provided comments about each suggested method for
                       determining whether Medicare’s fee schedule amounts for standard and
                       complex rehabilitation power wheelchairs should be adjusted. In
                       response to our first suggested method, CMS concurred that it has the
                       authority to use the payment amounts determined under the
                       Competitive Bidding Acquisition Program to adjust the existing
                       Medicare fee schedule amounts for DME items in areas not included in
                       a competitive bidding program. CMS stated that it will be conducting
                       rulemaking to implement a detailed methodology and process for
                       applying this authority.

                       In response to our second suggested method, CMS stated that it will
                       consider this method carefully. CMS noted that, although it is
                       considering taking steps to revise the administrative process for
                       gap-filling fee schedule amounts for new DME items, new legislation
                       may not be required to make these revisions.

                       In response to our third suggested method, CMS did not concur with
                       using its inherent reasonableness authority. CMS noted that it is not
                       likely to consider undertaking a review of the standard and complex
                       rehabilitation power wheelchair fee schedule amounts until the results
                       of the supplier bids under the Competitive Bidding Acquisition Program
                       have been assessed.

     OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   25
R   E C O    M M E N D A T           I O N



                       CMS also stated that it will consider that supplier purchase prices and
                       services differ by power wheelchair type when setting fee schedule
                       amounts.

                       We did not make changes to the report based on CMS comments. We
                       support CMS’s efforts to address these issues and encourage it to
                       continue to make progress in these areas. The full text of CMS’s
                       comments is provided in Appendix G.




     OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   26
Δ           A P P E N D I X ~ A




Population and Sample Sizes, by Category

                                                                                   Population                                                 Sample
Stratum         Definition                                         Claims        Expenditures          Suppliers        Claims        Expenditures           Suppliers
                Standard power wheelchairs
     1          supplied by low-volume suppliers                      7,223        $28,949,132               2,352          125               $499,152              124
                Standard power wheelchairs
     2          supplied by high-volume suppliers                   35,910       $144,354,060                  716          125               $502,989               94
 1 and 2         All standard power wheelchairs                     43,133       $173,303,192                3,068          250           $1,002,141                218
                 Complex rehabilitation power
     3           wheelchairs*                                         3,001        $16,010,906               1,064          125               $665,200              113

               Total                                                46,134       $189,314,098              3,362**          375           $1,667,341               325**
* Procedure codes K0835–K0864.
** Suppliers figures do not sum to totals because of overlap (some suppliers in our sample provided both standard and complex rehabilitation power wheelchairs).
Source: Office of Inspector General analysis of Medicare power wheelchair claims with dates of service from January 1 to June 30, 2007.




                       OEI-04-07-00400           POWER WHEELCHAIRS      IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS           AND   SERVICES     27
Δ         A P P E N D I X ~ B




Complex Rehabilitation Power Options and Accessories, From Sample
             Number of
            Chairs Item                                                                                                                                     Fee
              Supplied                                                                                                                                 Schedule
HCPCS              With                                                 Description of Complex Rehabilitation Power Option and Accessory               Amount*
                                 Manual swingaway, retractable or removable mounting hardware for joystick, other control interface or
E1028                  60                                                                                      positioning accessory                        $207
E0955                  51                                           Headrest, cushioned, any type, including fixed mounting hardware, each                  $202
E1002                  40                                                                                     Power seating system, tilt only              $4,113
                                  Positioning wheelchair back cushion, planar back with lateral supports, width less than 22 inches, any
E2620                  38                                                                     height, including any type mounting hardware                  $548
                                   Electronic connection between wheelchair controller and two or more power seating system motors,
                                       including all related electronics, indicator feature, mechanical function selection switch, and fixed
E2311                  24                                                                                                mounting hardware                 $2,369
E1010                  21                             Addition to power seating system, power leg elevation system, including legrest, pair                $1,144
E1007                  19                              Power seating system, combination tilt and recline, with mechanical shear reduction                 $8,741
K0734                  17                                     Skin protection wheelchair seat cushion, width less than 22 inches, any depth                 $331
E2607                  13                 Skin protection and positioning wheelchair seat cushion, width less than 22 inches, any depth                     $290
                                Electronic connection between wheelchair controller and one power seating system motor, including all
E2310                  12      related electronics, indicator feature, mechanical function selection switch, and fixed mounting hardware                   $1,170
E0956                  11                               Lateral trunk or hip support, any type, including fixed mounting hardware, each                      $99
                                    General use wheelchair back cushion, width less than 22 inches, any height, including any type mounting
E2611                   8                                                                                                          hardware                 $312
                             Positioning wheelchair back cushion, posterior-lateral, width less than 22 inches, any height, including any
E2615                   8                                                                                          type mounting hardware                   $452
K0736                   8     Skin protection and positioning wheelchair seat cushion, adjustable, width less than 22 inches, any depth                     $334
E2209                   7                                                                         Arm trough, with or without hand support, each            $107
K0108**                 7                                                          Wheelchair component or accessory not otherwise specified                 NA
E2617**                 6                 Custom-fabricated wheelchair back cushion, any size, including any type mounting hardware                           NA
                               Positioning wheelchair back cushion, posterior, width less than 22 inches, any height, including any type
E2613                   5                                                                                           mounting hardware                       $393
E2373**                 3      Hand or chin control interface, compact remote joystick, proportional, including fixed mounting hardware                      NA
E2605                   3                                         Positioning wheelchair seat cushion, width less than 22 inches, any depth                 $269
E1004                   2                                               Power seating system, recline only, with mechanical shear reduction                $4,869
E1008                   2                                Power seating system, combination tilt and recline, with power shear reduction                    $8,742
                                  Head control interface, proximity switch mechanism, nonproportional, including all related electronics,
E2330                   2        mechanical stop switch, mechanical direction change switch, head array, and fixed mounting hardware                       $3,422
K0735                   2                       Skin protection wheelchair seat cushion, adjustable, width 22 inches or greater, any depth                  $422
K0737                   2    Skin protection and positioning wheelchair seat cushion, adjustable, width 22 inches or greater, any depth                      $42
                                Hand control interface, multiple mechanical switches, nonproportional, including all related electronics,
E2322                   1                                                          mechanical stop switch, and fixed mounting hardware                     $1,410
                             Expandable controller, including all related electronics and mounting hardware, upgrade provided at initial
E2377                   1                                                                                                          issue                    $486
E2392**                 1                         Solid (rubber/plastic) caster tire with integrated wheel, any size, replacement only, each                 NA
E2399**                 1            Not otherwise classified interface, including all related electronics and any type mounting hardware                     NA
E2609**                 1                                                                  Custom-fabricated wheelchair seat cushion, any size                NA
* Durable Medical Equipment, Prosthetics, Orthotics, and Supplies 2007 Fee Schedule. (Amounts have been rounded to the nearest dollar.)
** Reimbursement amount determined on a case-by-case basis.


                      OEI-04-07-00400            POWER WHEELCHAIRS      IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS        AND   SERVICES   28
Δ   A P P E N D I X ~ C




     Estimates and Confidence Intervals for Power Wheelchair Acquisition Costs
                                                                                                                     95-Percent
                                                                           Sample              Point                 Confidence
     Estimate Description                                                    Size           Estimate                    Interval
                                    High-Volume Standard Power Wheelchair Suppliers
     Average acquisition cost                                                   99            $1,006                 $965-$1,047
     Average Medicare-allowed amount ($4,020) as a
     percentage of acquisition cost                                             99             400%                  384%-417%
                                     Low-Volume Standard Power Wheelchair Suppliers
     Average acquisition cost                                                  102            $1,249            $1,187-$1,311
     Average Medicare-allowed amount ($4,008) as a
     percentage of acquisition cost                                            102             321%                  306%-338%
                                         All Standard Power Wheelchairs Suppliers
     Average acquisition cost                                                  201            $1,048            $1,012-$1,083
     Average Medicare-allowed amount during the first half of
     2007 ($4,018) as a percentage of acquisition cost                         201             383%                  371%-397%
     Average Medicare payment under Competitive Bidding
     Acquisition Program ($3,073) as a percentage of
     acquisition cost                                                          201             293%                  284%-304%
     January 2009 Medicare fee schedule amount ($3,641) as
     a percentage of acquisition cost                                          201             347%                  336%-360%
     Beneficiary’s average copayment ($804) as a percentage
     of acquisition cost                                               201                       77%                    74%-79%
                                    Complex Rehabilitation Power Wheelchair Packages
     Average acquisition cost for package                                       71            $5,880            $5,231-$6,529
     Average Medicare-allowed amount during the first half of
     2007 ($11,507) as a percentage of acquisition cost                         71             196%                  176%-220%
     Medicare-allowed amount based on January 2009 fee
     schedule ($10,414) as a percentage of acquisition cost                     71             177%                  160%-199%
     Beneficiary’s average copayment ($2,301) as a
     percentage of average acquisition cost                                     71               39%                    35%-44%
     Average acquisition cost for power wheelchair                              71            $2,565            $2,389-$2,740
     Average Medicare-allowed amount for power wheelchair
     during the first half of 2007 ($5,354) as a percentage of
     acquisition cost                                                           71             209%                  195%-224%
     Average acquisition cost for power options                                 71            $3,316            $2,748-$3,883
     Average Medicare-allowed amount for power options and
     accessories during the first half of 2007 ($6,153) as a
     percentage of acquisition cost                                             71             186%                  158%-224%
                                                          Comparison
     Comparison of acquisition cost for standard power
     wheelchairs paid by high- and low-volume suppliers                        201              $243                   $170-$317




            OEI-04-07-00400       POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   29
A   P   P E N D        I X ~      C




    Estimates and Confidence Intervals for Average Number of Supplier Services, by Category
                                                                                                                        95-Percent
                                                                                          Sample         Point          Confidence
    Estimate Description                                                                    Size      Estimate             Interval
                                          All Standard Power Wheelchairs Suppliers
    Average number of services suppliers reported performing prior to delivery                201           1.4             1.3-1.6
    Average number of services suppliers reported performing during delivery                  201           3.4             3.2-3.6
    Average number of follow-up services suppliers reported performing                        201           0.2             0.1-0.4
    Average number of responses to beneficiary questions, other, and
    uncategorized services suppliers reported performing                                      201           0.2             0.1-0.3
    Average number of all services suppliers reported performing                     201                    5.3             5.0-5.6
                                      High-Volume Standard Power Wheelchair Suppliers
    Average number of services suppliers reported performing prior to delivery                 99           1.4             1.2-1.6
    Average number of services suppliers reported performing during delivery                   99           3.6             3.4-3.8
    Average number of follow-up services suppliers reported performing                         99           0.3             0.1-0.4
    Average number of responses to beneficiary questions, other, and
    uncategorized services suppliers reported performing                                       99           0.2             0.1-0.3
    Average number of all services suppliers reported performing                               99           5.4             5.1-5.8
                                      Low-Volume Standard Power Wheelchair Suppliers
    Average number of services suppliers reported performing prior to delivery                102           1.6             1.4-1.8
    Average number of services suppliers reported performing during delivery                  102           2.5             2.3-2.7
    Average number of follow-up services suppliers reported performing                        102           0.2             0.1-0.4
    Average number of responses to beneficiary questions, other, and
    uncategorized services suppliers reported performing                                      102           0.2             0.1-0.3
    Average number of all services suppliers reported performing                              102           4.6             4.3-5.0




              OEI-04-07-00400         POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   30
A    P   P E N D        I X ~      C




    Estimates and Confidence Intervals for Average Number of Supplier Services, by Category
    (Continued)
                                                                                                                      95-Percent
                                                                                         Sample         Point         Confidence
    Estimate Description                                                                   Size      Estimate            Interval
                                    Complex Rehabilitation Power Wheelchair Packages
    Average number of services suppliers reported performing prior to delivery                71           2.4             2.1-2.7
    Average number of services suppliers reported performing during delivery                  71           3.0             2.8-3.2
    Average number of follow-up services suppliers reported performing                        71           0.7             0.5-1.0
    Average number of responses to beneficiary questions, other, and
    uncategorized services suppliers reported performing                                      71           0.4             0.2-0.6
    Average number of all services suppliers reported performing                              71           6.5             6.0-7.1
                     Complex Rehabilitation Power Wheelchairs With No Power Options or Accessories
    Average number of services suppliers reported performing prior to delivery                30           1.8             1.3-2.2
    Average number of services suppliers reported performing during delivery                  30           2.5             2.2-2.8
    Average number of follow-up services suppliers reported performing                        30           0.4             0.1-0.8
    Average number of responses to beneficiary questions, other, and
    uncategorized services suppliers reported performing                                      30           0.3             0.1-0.5
    Average number of all services suppliers reported performing                              30           5.0             4.3-5.7
                                       All Complex Rehabilitation Power Wheelchairs
    Average number of services suppliers reported performing prior to delivery               101           2.2             2.0-2.5
    Average number of services suppliers reported performing during delivery                 101           2.8             2.7-3.0
    Average number of follow-up services suppliers reported performing                       101           0.7             0.5-0.9
    Average number of responses to beneficiary questions, other, and
    uncategorized services suppliers reported performing                                     101           0.4             0.2-0.5
    Average number of all services suppliers reported performing                             101           6.1             5.6-6.5




              OEI-04-07-00400       POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   31
A   P   P E N D        I X ~      C




Estimates and Confidence Intervals for Supplier Service Categories
                                                                                                                                    95-Percent
                                                                                             Sample        Point                    Confidence
Estimate Description                                                                           Size     Estimate                       Interval
                                             All Standard Power Wheelchairs Suppliers
Predelivery services, as percentage of all services                                             1,008       27.3%                  25.2%-29.5%
During-delivery services, as percentage of all services                                         1,008      64.2%                   61.4%-67.0%
Follow-up services, as percentage of all services                                               1,008        4.7%                    2.8%-6.7%
Responses to beneficiary questions, other, and uncategorized services, as
percentage of all services                                                                      1,008        3.8%                    2.4%-5.1%
                                        Complex Rehabilitation Power Wheelchair Packages
Predelivery services, as percentage of all services                                               464       37.1%                   34.0-40.1%
During-delivery services, as percentage of all services                                           464       45.5%                  42.2%-48.8%
Follow-up services, as percentage of all services                                                 464       11.4%                   8.2%-14.7%
Beneficiary questions, other, and uncategorized services, as percentage of all
services                                                                                          464        6.0%                    3.7%-8.4%




                OEI-04-07-00400       POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES     32
A   P   P E N D        I X ~       C



Estimates and Confidence Intervals for Percentage of Claims That Involved Supplier Services
                                                                                                                                            95-Percent
                                                                                                              Sample          Point         Confidence
Estimate Description                                                                                            Size       Estimate            Interval
                                                     All Standard Power Wheelchair Suppliers
        A   P   P E N D        I X ~      C
Percentage of power wheelchairs the supplier reported assembling                                                  201           64.0%       55.7%-71.5%
Percentage of power wheelchairs for which the supplier reported performing a patient evaluation                   201           46.6%       38.3%-55.0%
Percentage of power wheelchairs for which the supplier reported performing a home assessment prior
to delivery                                                                                                       201           27.3%       21.1%-34.7%
Percentage of power wheelchairs for which the supplier reported providing for an equipment trial                  201            5.9%        3.1%-10.9%
Percentage of power wheelchairs the supplier reported delivering                                                  201           99.8%      98.8%-100.0%
Percentage of power wheelchairs for which the supplier reported educating the beneficiary or
caregiver                                                                                                         201           93.1%       89.2%-95.7%
Percentage of power wheelchairs for which the supplier reported making adjustments during delivery                201           61.0%       52.7%-68.6%
Percentage of power wheelchairs for which the supplier reported performing a home assessment
during delivery                                                                                                   201           54.9%       46.7%-62.8%
Percentage of power wheelchairs for which the supplier reported testing the wheelchair’s functionality
during delivery                                                                                                   201           23.8%       17.3%-31.8%
Percentage of power wheelchairs for which the supplier reported performing repairs or maintenance                 201           10.9%        6.5%-17.6%
Percentage of power wheelchairs for which the supplier reported performing follow-up adjustment(s)                201            5.4%        2.8%-10.0%
Percentage of power wheelchairs for which the supplier reported responding to a beneficiary or
caregiver question about the power wheelchair                                                                     201            4.4%         2.0%-9.2%
Percentage of power wheelchairs for which the supplier reported performing a home assessment that
could not be categorized as prior to or during delivery                                                           201            7.2%        3.8%-13.2%
Percentage of power wheelchairs for which the supplier reported performing a service not referenced               201            8.2%        4.8%-13.8%
Percentage of power wheelchairs for which the supplier reported performing a home assessment                      201           89.4%       83.2%-93.6%
                                                Complex Rehabilitation Power Wheelchair Packages
Percentage of power wheelchairs the supplier reported assembling                                                   71           66.2%       54.6%-76.1%
Percentage of power wheelchairs for which the supplier reported performing a patient evaluation                    71           74.6%       63.4%-83.4%
Percentage of power wheelchairs for which the supplier reported performing a home assessment prior
to delivery                                                                                                        71           50.7%       39.3%-62.0%
Percentage of power wheelchairs for which the supplier reported providing for an equipment trial                   71           33.8%       23.9%-45.4%
Percentage of power wheelchairs the supplier reported delivering                                                   71           100.0%     95.1%-100.0%
Percentage of power wheelchairs for which the supplier reported educating the beneficiary or
caregiver                                                                                                          71           91.5%       82.5%-96.1%
Percentage of power wheelchairs for which the supplier reported making adjustments during delivery                 71           62.0%       50.3%-72.4%
Percentage of power wheelchairs for which the supplier reported performing a home assessment
during delivery                                                                                                    71           23.9%       15.5%-35.1%
Percentage of power wheelchairs for which the supplier reported testing the wheelchair’s functionality
during delivery                                                                                                    71           18.3%       11.0%-29.0%
Percentage of power wheelchairs for which the supplier reported performing repairs or maintenance                  71           31.0%       21.4%-42.5%
Percentage of power wheelchairs for which the supplier reported performing follow-up adjustment(s)                 71           26.8%       17.8%-38.1%
Percentage of power wheelchairs for which the supplier reported responding to a beneficiary or
caregiver question about the power wheelchair                                                                      71            7.0%        3.0%-15.8%
Percentage of power wheelchairs for which the supplier reported performing a home assessment that
could not be categorized as prior to or during delivery                                                            71            5.6%        2.1%-14.0%
Percentage of power wheelchairs for which the supplier reported performing a service not referenced                71           19.7%       12.1%-30.5%
Percentage of power wheelchairs for which the supplier reported performing a home assessment                       71           80.3%       69.5%-87.9%



                     OEI-04-07-00400          POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES    33
A    P    P E N D            I X ~        C




Estimates and Confidence Intervals for Percentage of Claims That Involved Supplier Services (Continued)
                                                                                                                           95-Percent
                                                                                          Sample        Point              Confidence
Estimate Description                                                                        Size     Estimate                 Interval      P-Value
                                                        Comparisons by Wheelchair Type
Difference in percentage of power wheelchairs for which the supplier
reported performing a patient evaluation                                                      272      (28.1%)      (41.1%)-(15.1%)          <0.001
Difference in percentage of power wheelchairs for which the supplier
reported providing for an equipment trial                                                     272      (27.9%)      (39.4%)-(16.5%)          <0.001
Difference in percentage of power wheelchairs for which the supplier
reported performing a home assessment prior to delivery                                       272      (23.4%)      (36.7%)-(10.0%)              0.001
Difference in percentage of power wheelchairs for which the supplier
reported performing a home assessment during delivery                                         272       31.0%          18.2%-43.7%           <0.001
Difference in percentage of power wheelchairs for which the supplier
reported performing repairs or maintenance                                                    272      (20.1%)       (32.0%)-(8.2%)              0.001
Difference in percentage of power wheelchairs for which the supplier
reported performing follow-up adjustment(s)                                                   272      (21.4%)      (32.1%)-(10.7%)          <0.001
Note: Parentheses indicate a negative value.




                     OEI-04-07-00400           POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   34
Δ          A P P E N D I X ~ D




Supplier Service Categories and Descriptions
Category                                                   Service                                                                      Service Description
                                                                                     Supplier employee performed or participated in an evaluation of the
                                           Evaluate beneficiary                                                                             beneficiary
                                    Provide for equipment trial                                 Supplier provided trial power wheelchair(s) to beneficiary
Predelivery
services                                  Assemble wheelchair                                                             Supplier assembled wheelchair
                                                                              Supplier evaluated home to verify that the beneficiary could adequately
                                                                               maneuver the wheelchair, considering physical layout, doorway width,
                                 Perform home assessment *                 doorway thresholds, and surfaces (may also be performed during delivery)
                                            Deliver wheelchair *                                   Supplier delivered the power wheelchair to beneficiary
                                               Adjust wheelchair                                   Supplier adjusted power wheelchair at time of delivery
During-                                                                         Supplier educated the beneficiary or caregiver on the power wheelchair’s
delivery                                  Educate beneficiary *                                          use, safety, or maintenance at time of delivery
services
                                                                                     Supplier tested the power wheelchair’s functions, such as brakes or
                                                 Test wheelchair                                                  electronics system, at time of delivery
                                 Perform home assessment *                                                      (May also be performed prior to delivery)
                                                                                Supplier performed maintenance on or replaced the power wheelchair or
Follow-up                      Perform repair/maintenance**                                                                        related accessories
services
                                               Adjust wheelchair                                  Supplier adjusted the power wheelchair or accessories
                                                                           Supplier responded to question from beneficiary or caregiver regarding the
                         Respond to beneficiary question **                                                                        power wheelchair
                                                                                 (Documentation was insufficient to categorize as either a pre- or during-
                                 Perform home assessment *                                                                               delivery service)
                                                                                Supplier loaned mobility equipment to beneficiary to use while waiting for
                                                Loan equipment                                                                                 equipment
                                                Move wheelchair                            Moved wheelchair for beneficiary from home to nursing facility
                                            Provide instructions                                      Instructions provided to beneficiary outside delivery
Other                                    Coordinate evaluation                                             Supplier coordinated evaluation for beneficiary
services
                  Services not          Perform administrative                         Supplier performed activity related to administrative processing of
                  referenced in                      services                                                                   beneficiary or equipment
                  request                           Followup with                Follow-up contact with beneficiary initiated by supplier (does not include
                                                      beneficiary                                         power wheelchair adjustment or maintenance)
                                                       Provide
                                         part/accessory with no
                                                        charge                         Supplier provided part or accessory with no charge to beneficiary
                                            Perform purchasing
                                                        activity                            Supplier performed activity related to purchase of the device
* Service is required by Medicare coverage policy for every power wheelchair.
** Service is required to be performed as needed by Medicare coverage policy.




                     OEI-04-07-00400             POWER WHEELCHAIRS      IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   35
Δ   A P P E N D I X ~ E




       Median Supplier Acquisition Costs and Confidence Intervals

                                                            Sample        Median Supplier         95-Percent Confidence
       Power Wheelchair Sub-Type                              Size        Acquisition Cost                      Interval
                                                    Standard Power Wheelchairs
       High-volume suppliers                                        99                     $930                    $929-$985
       Low-volume suppliers                                      102                   $1,168               $1,114-$1,201
       All suppliers                                             201                       $969               $930-$1,052
                                     Complex Rehabilitation Power Wheelchair Packages
        Power wheelchair                                            71                 $2,351               $2,273-$2,476
        Power options and accessories                               71                 $2,691               $2,402-$3,108
                 Total package                                      71                 $5,167               $4,813-$5,588
       Source: Office of Inspector General analysis of supplier acquisition costs, 2008.




       OEI-04-07-00400             POWER WHEELCHAIRS       IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   36
Δ      A P P E N D I X ~ F




    Average Numbers of Supplier Services per Power Wheelchair, by Service Category
                                                           Predelivery         During-Delivery            Follow-up        Other
    Power Wheelchair Sub-Type                                Services                Services              Services     Services          All Services*
                                                                Standard Power Wheelchairs
    High-volume suppliers                                              1.4                      3.6             0.3                 0.2              5.4
    Low-volume suppliers                                               1.6                      2.5             0.2                 0.2              4.6
    All suppliers                                                      1.4                      3.4             0.2                 0.2              5.3
                                                        Complex Rehabilitation Power Wheelchairs
    Packages                                                           2.4                      3.0             0.7                 0.4              6.5
    Wheelchairs supplied with no power
    options or accessories**                                           1.8                      2.5             0.4                 0.3              5.0
    All complex rehabilitation power
    wheelchairs                                                        2.2                      2.8             0.7                 0.4              6.1
    * Column may not sum to total because of rounding.
    ** These estimates’ sample size consists of 30 claims. See Appendix C for the confidence intervals.
    Source: Office of Inspector General analysis of supplier services, 2008.




                    OEI-04-07-00400            POWER WHEELCHAIRS      IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES    37
A P P E N D              I X ~ F




   Supplier Service Frequencies
                                                                       Percentage of Power Wheelchairs for Which Supplier
                                                                                       Performed Service
                                                                            All Standard
                                                                                   Power             Complex Rehabilitation Power
   Category           Service                                               Wheelchairs                    Wheelchair Packages
                      Assemble wheelchair                                            64%                                            66%
   Predelivery        Evaluate beneficiary                                           47%                                            75%
   services           Perform home assessment * **                                   27%                                            51%
                      Provide for equipment trial                                     6%                                            34%
                      Deliver wheelchair *                                         100%                                            100%

   During-            Educate beneficiary *                                          93%                                            92%
   delivery           Adjust wheelchair                                              61%                                            62%
   services
                      Perform home assessment * **                                   55%                                            24%
                      Test wheelchair                                                24%                                            18%
   Follow-up          Perform repair/maintenance*                                    11%                                            31%
   services           Adjust wheelchair                                               5%                                            27%
                      Respond to beneficiary question*                                4%                                                7%
   Other
                      Perform home assessment * **                                    7%                                                6%
   services
                      Services not referenced in request                              8%                                            20%
   * Service is required by Medicare coverage policy.

   ** We determined whether home assessments were performed prior to or during delivery. We included as an “other service” those with
      insufficient documentation to categorize as a pre- or during-delivery service.




            OEI-04-07-00400             POWER WHEELCHAIRS     IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS        AND   SERVICES    38
A P PEN 0                   x        G


                        AGENCY COMMENTS



          DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Cenlers for Medicare & Medicaid Services


                                                                                   Administrator
                                                                                   Washington, DC 20201




       DATE:           'AUG 072009
       T(!):          Daniel R. Levinson
                     ,Inspector General

       FROM:          Charlenc Frizzcra /S/
                      Acting Administrator

       SUBJECT:       Office of Inspector General's Draft Report: "Power Wheelchairs in the Medicare
                      Program: Supplier Acquisition Costs and Services" (OEl-04-07-00400)


       Thank you for the opportunity to review and comment on the Office of Inspector General's
       (OIG) draft report entitled, "Power Wheelchairs in the Medicare Program: Supplier Acquisition
       Costs and Services." The report compares suppliers' average acquisition costs for standard and
       complex rehabilitation power wheelchairs with Medicare's average fee schedule amounts lor
       2007 and 2009 and the average payment amount for the standard power wheelchair derived
       under the 2008 Round One Durable Medical Equipment, Prosthetics, Orthotics, and Supplies
       (DMEPOS) Competitive Bidding Acquisition Program. Also detai.led within the report is the
       nature and frequency of the services performed by the supplier before, during, and after the
       delivery of a power wheelchair.

       [n recent years, the Centers for Medicare & Medicaid Services (CMS) has been working on a
       number of impo11ant regulatory and administrative initiatives related to the coding, payment, and
       coverage of power wheelchairs in response to the significant growth in expenditures for these
       items under the Medicare program. The goals of these initiatives are to ensure that beneficiaries
       have access to the appropriate technology to meet their needs and to improve the appropriateness
       of Medicare's payment rates for this equipment. Revised Healthcarc Common Procedure
       Coding System (HCPCS) codes and product testing requirements for power wheelchairs were
       implemented in 2006 to ensure that HCPCS codes reflect current technology and to group
       wheelchair products based on industry standards for perfomlanee and durability. The fee
       schedule amounts for these codes were established in accordance with the rules set forth in
       Section 1834(a) ofthe Social Security Act (the Act) and were based on manufacturer-suggested
       retail prices.

       Another important CMS initiative related to the payment for power wheelchairs was the
       implementation of the Round One DMEPOS Competitive Ridding Acquisition Program in July
       2008. Suppliers submitted bids to establish payment amounts for standard and complex
       rehabilitation wheelchairs, along with other DMEPOS items, in 10 competitive bidding areas
       across the Nation. The bidding competition resulted in payment rates for standard and complex
       rehabilitation wheelchairs that were, on average, 21 percent and 15 percenllower, respectively,




 OEI·04·07·00400        POWER WHEELCHAIRS IN THE MEDICARE PROGRAM:      SUPPLIER ACQUISITION COSTS AND SERVICES               39
A P P E N D        I X ~ G




     OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   40
A P P E N D      I X ~ G




      OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   41
A P P E N D        I X ~ G




     OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   42
Δ   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Dwayne F. Grant,
                  Regional Inspector General in the Atlanta regional office.

                  Mina Zadeh served as the team leader for this study, and
                  Sarah Ambrose served as the lead analyst. Other principal Office of
                  Evaluation and Inspections staff from the Atlanta regional office who
                  contributed to this report include Peggy Daniel; central office staff who
                  contributed include Berivan Demir, Kevin Farber, and Scott Manley.
                  Robert A. Vito and Carolyn Kenline from the Philadelphia and Boston
                  regional offices also contributed.




OEI-04-07-00400   POWER WHEELCHAIRS   IN THE   MEDICARE PROGRAM: SUPPLIER ACQUISITION COSTS   AND   SERVICES   43
